   DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                      Office of Audit Services, Region III
                                                                      Public Ledger Building, Suite 316
                                                                      150 S. Independence Mall West
                                                                      Philadelphia, PA 19106-3499



November 2, 2011

Report Number: A-03-11-00500

Mr. J. Gilbert Seaux
Board Chairman
Spotsylvania County Public Schools Head Start Program
3140 Summit Crossing Road
Fredericksburg, VA 22408

Dear Mr. Seaux:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Review of Spotsylvania County Schools Head Start
Costs Claimed for the Period August 2008 Through July 2010. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michael Walsh, Audit Manager, at (215) 861-4480 or through email at
Michael.Walsh@oig.hhs.gov. Please refer to report number A-03-11-00500 in all
correspondence.

                                             Sincerely,




                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. J. Gilbert Seaux

Direct Reply to HHS Action Official:
Ms. Linda Savage
Regional Program Manager
Administration for Children and Families
U.S. Department of Health and Human Services
Region III
Public Ledger Building, Suite 864
Philadelphia, PA 19106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    RESULTS OF REVIEW OF
SPOTSYLVANIA COUNTY SCHOOLS
  HEAD START COSTS CLAIMED
 FOR THE PERIOD AUGUST 2008
     THROUGH JULY 2010




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-03-11-00500
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND
Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF), Office of Head Start,
administers the Head Start program.
The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion for the Head Start program during fiscal
years 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.
The School Board of the Spotsylvania County School District (Spotsylvania) Head Start program
is a comprehensive preschool program promoting school readiness for eligible low income
children and providing family support in the areas of medical care, housing, financial literacy,
nutrition, education, and positive parenting. At the time of our audit, the Spotsylvania Head
Start program had classrooms at 5 separate Spotsylvania locations and enrolled 121 preschool
children.
The Spotsylvania Head Start program is funded primarily through Federal and local Government
grants. For the period August 2008 through July 2010, ACF awarded regular grant funds
totaling $1,615,381 to the Spotsylvania Head Start program. On June 11, 2009, Spotsylvania
also received $60,117 in Recovery Act funding.

OBJECTIVES
Our objectives were to determine whether Spotsylvania adequately supported Head Start
program costs claimed on its Financial Status Reports and records and whether the costs were
allowable, allocable, and reasonable, and to determine whether Spotsylvania operated its
program in accordance with Federal regulations.

SUMMARY OF FINDINGS
Based on our review, Spotsylvania adequately supported Head Start program costs claimed on its
Financial Status Reports and records, and the costs were allowable, allocable, and reasonable.
Spotsylvania operated its program in accordance with Federal regulations. However, our review
identified control weaknesses related to Spotsylvania’s in-kind contributions.




                                                i
RECOMMENDATION
We recommend that Spotsylvania improve procedures to ensure that in-kind contributions of
transportation expenses are accurately documented and supporting records for volunteer services
are verified.

SPOTSYLVANIA COUNTY SCHOOLS COMMENTS

In its comments on our draft report, Spotsylvania concurred with all of our findings and
identified steps it had taken or planned to take.

Spotsylvania’s comments are included in their entirety in the Appendix.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Spotsylvania County Schools Head Start Program. ...........................................1
              Federal Requirements ........................................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................2
               Objectives ..........................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDING AND RECOMMENDATION ...............................................................................3

           IN-KIND DOCUMENTATION AND REPORTING ..................................................3

          RECOMMENDATION .................................................................................................4

OTHER MATTER: IN-KIND SERVICES AND FACILITIES ........................................4

SPOTSYLVANIA COUNTY SCHOOLS COMMENTS… ..................………..…………4




                                                                    iii
                                       INTRODUCTION
BACKGROUND
Head Start Program
Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF), Office of Head Start,
administers the Head Start program.
The Head Start program provides grants to local public and private nonprofit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.
The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion for the Head Start program during fiscal
years 2009 and 2010. These funds were intended for activities such as expanding enrollment,
funding cost-of-living wage increases for grantees, upgrading centers and classrooms, and
bolstering training and technical assistance.

Spotsylvania County Schools Head Start Program
The School Board of the Spotsylvania County School District (Spotsylvania) Head Start program
is a comprehensive preschool program promoting school readiness for eligible low income
children and providing family support in the areas of medical care, housing, financial literacy,
nutrition, education, and positive parenting. At the time of our audit, the Head Start program had
classrooms at 5 Spotsylvania locations and enrolled 121 preschool children.
The Spotsylvania Head Start program is primarily funded through Federal and local Government
grants. For the period August 2008 through July 2010, ACF awarded regular grant funds
totaling $1,615,381 to the Spotsylvania Head Start program. On June 11, 2009, Spotsylvania
also was awarded $60,117 in Recovery Act funding.

Federal Requirements
The Standards for Financial Management Systems (45 CFR § 92.20) establish regulations for
grantees to maintain financial management systems. Grantees’ financial management systems
must provide for accounting records, including cost accounting records, that are supported by
source documentation (45 CFR § 92.20(b)(6)). Grantees’ financial management systems must
also provide effective control over and accountability of all funds, property, and other assets so
that recipients adequately safeguard all such assets and assure they are used solely for authorized
purposes (45 CFR § 92.20(b)(3)).

                                                 1
Federal regulations (45 CFR § 92.24(b)(6)) require that all cash and third party in-kind
contributions used to satisfy the cost sharing or matching requirements of the grant must be
verifiable from the recipient’s records.
The Head Start Program Performance Standards (45 CFR §§ 1301 through 1311) establish
regulations applicable to program operations, administration, and grants management for all
grants awarded under the Head Start Act. Section 1301 of the Performance Standards establishes
regulations applicable to program administration and grants management for grantees, including
non-Federal share requirements (§ 1301.20), administrative cost limitations (§ 1301.32), and
employee background check requirements (§ 1301.31).

OBJECTIVES, SCOPE, AND METHODOLOGY
Objectives
Our objectives were to determine whether Spotsylvania adequately supported Head Start
program costs claimed on its Financial Status Reports and records and whether the costs were
allowable, allocable, and reasonable, and to determine whether Spotsylvania operated its
program in accordance with Federal regulations.

Scope
We reviewed Spotsylvania’s Head Start program claims for regular grant costs of $2,849,799
(including costs totaling $1,577,088 claimed against ACF regular grant awards) and Recovery
Act costs of $53,091 for the period August 2008 through July 2010. We performed this review
in response to a March 9, 2011, request for audit from ACF and a subsequent request to provide
information about in-kind services. Therefore, we did not perform an overall assessment of the
Spotsylvania Head Start program’s internal control structure. Rather, we reviewed only the
internal controls that pertained directly to our objectives.
We performed our fieldwork at the Spotsylvania administrative offices in Fredericksburg,
Virginia, from March 23 through April 1, 2011.

Methodology
To accomplish our objectives, we:

   •    reviewed relevant Federal laws, regulations, and guidance, including Office of Head Start
        program and policy announcements;

   •    reviewed Spotsylvania’s Head Start application and supporting documentation;

   •    reviewed Federal Head Start grant award documentation to determine the Spotsylvania
        Head Start program’s total Head Start and Recovery Act Federal funding;

   •    interviewed Spotsylvania Head Start program personnel to gain an understanding of its
        internal controls and its accounting system controls;

                                                2
   •   reviewed Spotsylvania’s program and fiscal policies and procedures;

   •   reviewed Spotsylvania’s Financial Status Reports (Standard Form-269) and supporting
       documentation;

   •   reviewed Spotsylvania’s audited financial statements;

   •   reviewed Spotsylvania’s background checks for all Head Start employees;

   •   reviewed Spotsylvania’s Board of Director meeting agendas and organizational chart; and

   •   identified the methodology Spotsylvania used to record in-kind services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDING AND RECOMMENDATION
Based on our review, Spotsylvania adequately supported Head Start program costs claimed on its
Financial Status Reports and records, and the costs were allowable, allocable and reasonable.
Spotsylvania operated its program in accordance with Federal regulations. However, our review
identified control weaknesses related to Spotsylvania’s in-kind contributions.

IN-KIND DOCUMENTATION AND REPORTING
Federal regulations (45 CFR § 92.24(b)(6)) require that all cash and third party in-kind
contributions used to satisfy the cost sharing or matching requirements of the grant must be
verifiable from the recipient’s records.

   •   Spotsylvania did not always verify its in-kind contributions in accordance with Federal
       regulations. Spotsylvania program officials provided documentation for in-kind
       transportation contributions that included budgeted amounts for monthly bus inspections,
       insurance, and maintenance. However, Spotsylvania did not reconcile the budgeted
       amounts to actual costs. Spotsylvania staff acknowledged the inadequacy of the
       documentation and indicated that they would revise the procedures to more accurately
       document in-kind transportation contributions.

   •   Spotsylvania did not adequately verify some in-kind volunteer hours. Forms used to
       support volunteer service in the classroom did not always have the necessary signature of
       the classroom teacher verifying the number of hours claimed.



                                                3
Because Spotsylvania’s contributions exceeded its matching requirement, revaluation of the in-
kind contributions would not result in Spotsylvania failing to meet its 45 percent requirement.

RECOMMENDATION
We recommend that Spotsylvania improve procedures to ensure that in-kind contributions of
transportation expenses are accurately documented and supporting records for volunteer services
are verified.

               OTHER MATTER: IN-KIND SERVICES AND FACILITIES

Spotsylvania provided in-kind volunteer and transportation services to meet its non-Federal
contribution requirement. Spotsylvania also provided the use of facilities to the Head Start
program. To determine the value of these facilities, which included classroom and office space,
Spotsylvania procured the services of a licensed appraiser. The appraiser provided a summary
appraisal report that calculated a current fair market value of the office and classroom space used
by the Head Start program. The report also included an evaluation of market rent within the
subject area. However, Spotsylvania did not claim the facilities costs or the appraisal as part of
its matching requirement.
SPOTSYLVANIA COUNTY SCHOOLS COMMENTS

In its comments on our draft report, Spotsylvania concurred with all of our findings and
identified steps it had taken or planned to take.

Spotsylvania’s comments are included in their entirety in the Appendix.




                                                4
APPENDIX
             APPENDIX: SPOTSYLVANIA COUNTY SCHOOLS COMMENTS 




SPOTSYLVANIA                             8020 RIVER STONE DRIVE • FREDERICKSBURG, VA 22407
COU N TY          SCHOOLS                         P 540.834.2500 • F 540.834.2559 

             FINANCE                                     TDO 540.834.2557 


October 11,2011



Office of Audit Services, Region III 

Public Ledger Building, Suite 316 

150 S. Independence Mall West 

Philadelphia, PA 19106-3499

Dear Mr. Walsh,

Please see below my response to the OIG's report - A-03-11-00500.

The school division concurs with the finding in that not all of the in-kind transportation expenses
were supported with exact actual figures. Some of the in-kind numbers documented were based on
averages, not necessarily budgeted numbers. With support from the division's Infonnation
Technology department, in-kind transportation expenses will be based on exact costs since it has
been made clear by the OIG that costs based on averages is not acceptable. In order to derive the
exact fuel expense, the Transportation Department has identified each Head Start bus and each time
the Head Start buses are fueled at the pump station, these exact costs will be reported in the school
division's subsidiary ledger and the applicable in-kind transportation monthly invoice. In order to
derive the exact bus inspection or bus maintenance expenses, the Transportation department will
receive exact numbers from the Fleet Services department for the Head Start buses in use. In order to
obtain actual payroll costs for Head Start bus drivers, these costs will be pulled from the monthly
payroll register. In order to compile the actual monthly insurance costs for Head Start buses, these
costs will be extracted from the actual insurance
                                                , vendor invoice. These corrective action procedures
will ensure that all expenses on the in-kind transportation invoice are accurately reported and 

supported by actual vendor invoices and/or actual payroll registers. 


The school division concurs with this finding in that supporting records for volunteer services were
not being signed each time. This finding was corrected while the 010 auditors were on site. Every
volunteer service document was verified and signed. In addition, procedures for determining and
verifying volunteer in-kind contributions was drafted and implemented whereby all volunteer service
documentation is verified and signed.

Sincerely,


;JdU ~<~
LaShahn Gaines, CPA, CPM 

Chief Financial Officer 


cc: File




                               A   GLOBAL LEARNING COMMUNITY
